Audit Report



Return to the USDOJ/OIG Home Page




Office of Justice ProgramsNational Institute of JusticeJustice Research, Evaluation, and Development Project Cooperative Agreement Awarded to the University of Central Florida to Continue the National Center for Forensic Science Project, Cooperative Agreement Number 1998-IJ-CX-K003

Report No. GR-40-04-007


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Justice Research, Evaluation, and Development Project cooperative agreement, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice (NIJ) to the University of Central Florida (UCF) located in Orlando, Florida.  The purpose of this cooperative agreement was to continue the operations of the National Center for Forensic Science (NCFS) project established at the UCF under NIJ grant 97-DN-VX-0001.  The NCFS was created as a unique laboratory facility designed to provide technical assistance to the forensic science and law enforcement communities in the area of fire and explosion debris.  As of September 30, 2003, the UCF was awarded a total of $7,865,535.
We tested the UCF's accounting records to determine if reimbursements claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement.  As of November 6, 2003, the UCF had been reimbursed $5,958,843 of the $7,865,535 cooperative agreement amount.
Our audit revealed deficiencies in the areas of reporting, budget management and control, and expenditures.  As a result, we questioned $909,534 in cooperative agreement funds received.1   In brief, we found that the UCF:

Incorrectly reported total outlays and indirect cost amounts on some Financial Status Reports.


Submitted most progress reports untimely.


Claimed and was reimbursed $909,534 that was either not supported by adequate documentation, not approved by OJP, or exceeded the amounts approved by OJP.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.